<html>
<title> - [H.A.S.C. No. 117-1] ORGANIZATIONAL MEETING FOR THE 117TH CONGRESS</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                          [H.A.S.C. No. 117-1]

             ORGANIZATIONAL MEETING FOR THE 117TH CONGRESS

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MEETING HELD

                            FEBRUARY 3, 2021


                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 






                           ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
43-614                WASHINGTON : 2021 
 
 


                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Seventeenth Congress

                    ADAM SMITH, Washington, Chairman

JAMES R. LANGEVIN, Rhode Island      MIKE ROGERS, Alabama
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                MICHAEL R. TURNER, Ohio
JOE COURTNEY, Connecticut            DOUG LAMBORN, Colorado
JOHN GARAMENDI, California           ROBERT J. WITTMAN, Virginia
JACKIE SPEIER, California            VICKY HARTZLER, Missouri
DONALD NORCROSS, New Jersey          AUSTIN SCOTT, Georgia
RUBEN GALLEGO, Arizona               MO BROOKS, Alabama
SETH MOULTON, Massachusetts          SAM GRAVES, Missouri
SALUD O. CARBAJAL, California        ELISE M. STEFANIK, New York
ANTHONY G. BROWN, Maryland,          SCOTT DesJARLAIS, Tennessee
RO KHANNA, California                TRENT KELLY, Mississippi
WILLIAM R. KEATING, Massachusetts    MIKE GALLAGHER, Wisconsin
FILEMON VELA, Texas                  MATT GAETZ, Florida
ANDY KIM, New Jersey                 DON BACON, Nebraska
CHRISSY HOULAHAN, Pennsylvania       JIM BANKS, Indiana
JASON CROW, Colorado                 LIZ CHENEY, Wyoming
ELISSA SLOTKIN, Michigan             JACK BERGMAN, Michigan
MIKIE SHERRILL, New Jersey           MICHAEL WALTZ, Florida
VERONICA ESCOBAR, Texas              MIKE JOHNSON, Louisiana
JARED F. GOLDEN, Maine               MARK E. GREEN, Tennessee
ELAINE G. LURIA, Virginia, Vice      STEPHANIE I. BICE, Oklahoma
    Chair                            C. SCOTT FRANKLIN, Florida
JOSEPH D. MORELLE, New York          LISA C. McCLAIN, Michigan
SARA JACOBS, California              RONNY JACKSON, Texas
KAIALI'I KAHELE, Hawaii              JERRY L. CARL, Alabama
MARILYN STRICKLAND, Washington       BLAKE D. MOORE, Utah
MARC A. VEASEY, Texas                PAT FALLON, Texas
JIMMY PANETTA, California
STEPHANIE N. MURPHY, Florida
Vacancy

                     Paul Arcangeli, Staff Director
             Zach Steacy, Director, Legislative Operations
             ORGANIZATIONAL MEETING FOR THE 117TH CONGRESS

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Wednesday, February 3, 2021.
    The committee met, pursuant to call, at 11:00 a.m., in room 
2118, Rayburn House Office Building, Hon. Adam Smith (chairman 
of the committee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
       WASHINGTON, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Call the meeting to order.
    Members in the committee room anyway will take their seats, 
and we will go ahead and get started.
    Well, thank you all for joining us for the organizational 
meeting of the--I forgot the number--the next Congress in any 
rate.
    We do have some members who are joining us remotely, as you 
can see. I now have to read the instructions for how to 
remotely participate. One of the key points, as we have already 
learned this morning, is make sure you are muted, unless you 
are officially speaking, something we are all learning.
    So members who are joining remotely must be visible on 
screen for the purposes of establishing and maintaining a 
quorum, seeking recognition, participating in the proceeding, 
and voting. Those members must continue to use the software 
platform's video function while in attendance, unless they 
experience connectivity issues or other technical problems that 
render them unable to participate on camera.
    If a member experiences technical difficulties, they should 
contact the committee staff for assistance.
    Video of members' participation will be broadcast in the 
room and via the television internet feed. Members 
participating remotely must unmute their microphones and seek 
recognition verbally, and they are asked to mute their 
microphones when they are not speaking.
    Members who are participating remotely are reminded to keep 
the software platform's video function on the entire time they 
attend the proceeding. Members may leave and rejoin the 
proceeding. If members depart for a short while for reasons 
other than joining a different proceeding, they should leave 
the video function on. If members will be absent for a 
significant period of time, or depart to join a different 
proceeding, they may remain logged on to the software platform 
but must turn off the audio and visual functions if and until 
they return.
    Members may use the software platform's chat feature to 
communicate with staff regarding technical or logistical 
support issues only.
    Finally, I have designated a committee staff member to, if 
necessary, mute unrecognized members' microphones to cancel any 
inadvertent background noise that may disrupt the proceedings.
    All right. So that is the intro on remote participation.
    And now we are here to launch the House Armed Services 
Committee for this session of Congress, and I am very pleased 
to do that. I look forward to coming back and working together 
with both returning members and the new members that we have to 
the committee.
    Before I get into the new members, I just really want to 
thank the staff and the members who have participated over the 
course of the last 2 years. You know, it is hard to say 
exactly, but in the 24 years I have been here, I would wager 
that they were 2 of the more difficult years for this committee 
in terms of getting our work done in difficult circumstances.
    And at the end of the day, in ever more creative fashion, 
we got it done, and I think we can all be very, very proud of 
that. The two pieces of legislation that we have passed the 
last 2 years have some incredibly important, substantive 
legislation attached to them.
    No, Mike, I am not just talking about the Space Force. But 
certainly that was one. And there were a lot of other things 
that we were able to do in that legislation that I think is 
incredibly important.
    But outside of the substance, the mere fact that in a 
bipartisan way a committee in the United States Congress was 
able to go through regular order and pass two defense bills 
through committee, through markup, through votes in this 
committee, on the floor, in the Senate, go into conference and 
get that done almost qualifies as a miracle in this particular 
setting. And I think it is incredibly important that we did 
that and I think it is equally important that we continue to do 
it.
    I believe passionately in representative democracy. I think 
it works. I think it is the best system of government going, 
has been for a long time, and will continue to be. And to the 
extent that we show people that it can work, that reinforces 
that message and makes sure that we deliver for the American 
people, deliver them the democracy that they have every right 
to expect.
    So I am pleased we were able to do that. Again, I want to 
thank the members and the staff. And, hell, I will even thank 
the Senate. I think they did a very good job as well. So 
enjoyed working with them and glad we were able to get that 
done and look forward to moving forward into the new year.
    With that, we have new members of the committee, which I 
will introduce, and I will attempt to get the details here to 
the extent that my glasses do not fog up while I am doing it.
    On our side, if I am counting correctly, I think we have--
we have seven new members. As you will see near the end here, 
we have some who are new, but they have been here before. So 
they are returning.
    But for now, let me start with Joe Morelle, who is a new 
member to the committee, not a new Member of Congress. He 
represents New York's 25th District, which includes the 
University of Rochester's Laboratory for Laser Energetics. He 
is the son of a Korean War veteran. And he joins the committee 
having previously served as the majority leader of the New York 
State Assembly.
    Welcome, Joe.
    I should point out, obviously, given the remote setting, 
some of these members we are introducing are not physically 
here. They are on the screen. So we can just wave at the screen 
and welcome them up there and thank them for joining us.
    Next we have Sara Jacobs, who I believe is here.
    Welcome.
    She is representing California's 53rd District, replacing 
Susan Davis, who we all know well, who served on this committee 
for 22 years, quite ably. Her district includes much of San 
Diego County, which, as we know, has numerous Navy 
installations, from Coronado to Naval Base San Diego, as well 
as Marine Corps Air Station Miramar just outside of the 
district. And prior to Congress, Ms. Jacobs served in the 
Bureau of Conflict and Stabilization Operations at the U.S. 
Department of State. Very qualified.
    And welcome to Congress and welcome to the committee.
    Our third new member is Kai Kahele, who represents Hawaii's 
Second Congressional District, which covers all the Hawaiian 
Islands, a lot of ground to cover. On Oahu, the Second 
Congressional District covers the regions outside of urban 
Honolulu and its immediate suburbs.
    Congressman Kahele is a combat veteran pilot and 
commissioned officer in the Hawaii Air National Guard. Always 
good to have that experience.
    Welcome to the committee.
    He, too, is participating remotely. So glad to have 
Congressman Kahele joining us.
    Next we have Marilyn Strickland, who is from my home State 
of Washington. Once upon a time I lived in the city of Tacoma 
when she was the mayor of the city of Tacoma. So Marilyn and I 
have worked together for a long time. I welcome her to 
Congress.
    She represents the 10th District, which includes Joint Base 
Lewis-McChord. Also, again, I used to represent them. So after 
redistricting 10 years ago, that moved into this district that 
Marilyn is now representing. And that is the largest single-
point employer in our State, with a yearly impact of $8 
billion.
    Marilyn is the daughter of a World War II and Korean War 
veteran. We welcome her to the committee as well.
    Now we have some returning members.
    Marc Veasey, who represents Texas' 33rd District, known 
very, very well to us, served on the committee for a couple of 
years before leaving to serve on other committees and is now 
back. So we are very happy to have that experience and to 
represent that part of Texas, which obviously has a huge 
defense industry in it.
    Welcome back to Marc Veasey.
    Jimmy Panetta is also coming back to us, having served on 
the committee previously. He represents California's 20th 
District, which includes a lot of national security assets, 
four parent installations--Fort Hunter Liggett, Naval 
Postgraduate School, Presidio of Monterey--and five Army 
National Guard bases.
    And if you haven't had a chance to get out to see the Navy 
Postgraduate School, it is, number one, an incredibly beautiful 
part of the country to go visit, but, number two, they are 
doing really cool stuff out there.
    And in 2007 he volunteered for Active Duty and was deployed 
to Afghanistan and was awarded the Bronze Star for meritorious 
service in combat.
    Welcome back, Jimmy. Happy to have you on the committee.
    And lastly on our side we have Stephanie Murphy. She also 
has previously served on the committee, is coming back. She 
represents Florida's Seventh District, which includes Naval 
Support Activity Orlando. She has worked in the Office of the 
Under Secretary of Defense for Policy and was a member of this 
committee from 2017 to 2018.
    A terrific and experienced bunch that we have both coming 
back and joining us anew. So welcome to all the new Democratic 
Members of Congress. Happy to have you on board and look 
forward to working with you.
    And with that, I will yield to the ranking member, Mr. 
Rogers, for his opening statement.

 STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM ALABAMA, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Rogers. Thank you, Mr. Chairman.
    And really it is an honor to be able to lead the 
Republicans on this committee, and I know that we are going to 
continue to work in a bipartisan fashion, like we have in the 
past, delivering an authorization each of the last 60 years.
    And in that vein I want to thank Chairman Smith and his 
staff for working with us on committee assignments, 
subcommittee assignments, and adjusting the ratio so our 
members could get where they wanted to be, and I appreciate 
that accommodation.
    This Congress must continue to address threats posed by a 
rising China and a belligerent Russia. Like many of our 
members, I see China's concerted push for global domination as 
a threat to all free nations. America must engage with our 
allies and partners to defend ourselves from this growing 
threat.
    But that engagement must be backed by a credible and a 
modern military. This means addressing gaps in our readiness 
and fielding next-generation capabilities faster than ever 
before.
    Thankfully, we have some new talent on the way to help us 
with this endeavor, and, fortunately, again this cycle the 
Armed Services Committee was one of the most sought after 
committees on the Republican Conference side, and we have nine 
new members with a range of interests and experience.
    First we have Mike Johnson, who represents the Fourth 
District of Louisiana. His district is home to Barksdale Air 
Force Base and Polk Joint Readiness Training Center.
    Next we have Mark Green of Tennessee. He represents their 
Seventh District. He served 24 years in the Army, between the 
Academy and as a physician on Active Duty in the Army and Army 
Reserve.
    Stephanie Bice represents the Fifth District of Oklahoma, 
which is home to thousands of Oklahomans who serve with Tinker 
Air Force Base.
    Scott Franklin represents the 15th District of Florida. He 
has served 26 years as a naval aviator, 14 on Active Duty and 
12 in the Naval Reserve.
    Lisa McClain represents Michigan's 10th District, home to 
Selfridge Air National Guard Base. She joins us after a very 
successful business career.
    Ronny Jackson represents the 13th District of Texas. He had 
a 25-year career in the Navy and led the White House Medical 
Unit as physician to President Obama and President Trump.
    Jerry Carl, a former county commissioner who represents 
Alabama's First District, home of our Nation's critical 
shipyard infrastructure.
    And Blake Moore, who represents Utah's First District, had 
a distinguished career in the Foreign Service before coming to 
Congress. And he cares very much about Hill Air Force Base.
    Pat Fallon represents the Fourth District of Texas. Again, 
we have two members from Texas because they do have an 
incredible defense presence there, 15 Active Duty 
installations. He served as an officer in the Air Force before 
becoming a successful businessman.
    And I welcome each of these new members and look forward to 
working with them.
    And with that, Mr. Chairman, I yield back.
    The Chairman. Thank you very much.
    And actually I was remiss in my opening remarks on 
congratulating our new ranking member. Obviously not new to the 
committee. We have worked together for many, many years.
    And it is great to have you in that seat. Look forward to 
continuing our bipartisan tradition.
    So now we have some business to conduct to get the 
committee set up, and I call up Committee Resolution No. 1, 
regarding the committee rules for the 117th Congress. And the 
clerk shall read the resolution.
    Ms. Quinn. Committee resolution No. 1. Resolved, That the 
Committee on Armed Services, U.S. House of Representatives, 
adopt the committee rules for the 117th Congress, which are 
stated in the copy distributed to each Member.
    The Chairman. The proposed committee rules have been 
developed jointly with Ranking Member Rogers and made available 
to members' offices on Friday, January 29th. Following 
consultation with Mr. Rogers, I ask unanimous consent that the 
resolution be considered as read and that the resolution be 
open to amendment at any point.
    Is there objection?
    Without objection, it is so ordered.
    And at this time is there any discussion or are there any 
questions concerning the committee rules?
    If there is no discussion, are there any amendments to the 
committee rules?
    Hearing none, the chair now recognizes the gentleman from 
Washington, Mr. Larsen, for the purpose of offering a motion 
regarding Committee Resolution No. 1, the committee rules.
    Mr. Larsen. Mr. Chair, I move to adopt Committee Resolution 
No. 1, concerning the committee rules.
    The Chairman. The question now occurs on the motion of the 
gentleman from Washington, Mr. Larsen.
    So many as are in favor will say aye.
    Opposed?
    A quorum being present, the ayes have it and the motion is 
adopted. And, without objection, a motion to reconsider is laid 
upon the table.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 



 The next order of business is Committee Resolution No. 
2, regarding the committee's security procedures for the 117th 
Congress. I call up Committee Resolution No. 2. The clerk shall 
read the resolution.
    Ms. Quinn. Committee Resolution No. 2. Resolved, That the 
Committee on Armed Services, U.S. House of Representatives, 
adopt the committee security procedures for the 117th Congress, 
a copy of which has been distributed to each member.
    The Chairman. The security procedures were coordinated with 
Mr. Rogers and were made available to members' offices on 
Friday, January 29th. Following consultation with Mr. Rogers, I 
ask unanimous consent that the resolution be considered as read 
and that the resolution be open to amendment at any point.
    Is there objection?
    Without objection, it is so ordered.
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
        
    .epsAnd at this time there is any discussion? Are there any 
questions concerning the security procedures?
    There is no discussion.
    Are there any amendments to the security procedures?
    Hearing no amendments, the chair now recognizes the 
gentleman from Rhode Island, Mr. Langevin, for the purposes of 
offering a motion regarding Committee Resolution No. 2, the 
security procedures of the 117th Congress.
    Mr. Langevin.
    Mr. Langevin. Mr. Chairman, I move to adopt Committee 
Resolution No. 2, the security procedures for the 117th 
Congress.
    The Chairman. The question now occurs on the motion of the 
gentleman from Rhode Island, Mr. Langevin.
    So many as are in favor will say aye.
    As opposed, say no.
    A quorum being presented, the ayes have it and the 
resolution is adopted. Without objection, a motion to 
reconsider is laid upon the table, which brings us to the final 
order of business.
    I call up Committee Resolution No. 3, appointing committee 
staff for the 117th Congress. The clerk shall read the 
resolution.
    Ms. Quinn. Committee Resolution No. 3. Resolved, That the 
persons listed on the sheet distributed to the Members and such 
other personnel as may be required by the committee within the 
limits and terms authorized under the rules of the House of 
Representatives are hereby appointed to the staff of the 
Committee on Armed Services, U.S. House of Representatives, for 
the 117th Congress, it being understood that according to the 
provisions of law, the Chairman will fix the basic salary per 
annum.
    The Chairman. Thank you.
    As many of you know, our committee is unique in that the 
committee staff is a combined staff. What that means basically 
is most--every other committee you divide up Democrats, 
Republicans, go your separate ways. Here our staff works for 
everybody, and I hope members will recognize that and take 
advantage of that. Every single member of the staff that we 
have is open to every member of this committee, and they have 
incredibly valuable experience that will help us do our job.
    So please take advantage of that. Build those relationships 
with the staff. They have a lot of knowledge to share. They are 
a very talented group of professionals.
    A copy of the committee staff in the 117th Congress was 
prepared in consultation with the minority and made available 
to members' offices on Friday, January 29th.
    Following conversations--or consultation--with Mr. Rogers, 
I ask unanimous consent that the resolution be considered as 
read.
    Is there objection?
    Without objection, it is so ordered.
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
       
    .epsAnd at this time is there any discussion or are there 
any questions regarding the committee staff?
    Hearing none, the chair now recognizes the gentleman from 
Rhode Island, Mr. Langevin, for the purposes of offering a 
motion regarding Committee Resolution No. 3, appointing the 
committee staff for the 117th Congress.
    Mr. Langevin.
    Mr. Langevin. Mr. Chairman, I move to adopt Committee 
Resolution No. 3, regarding committee staffing for the 117th 
Congress.
    The Chairman. The question now occurs on the motion of the 
gentleman from Rhode Island, Mr. Langevin.
    So many as in favor will say aye.
    Those opposed, no.
    A quorum being present, the ayes have it and the motion is 
adopted. Without objection, a motion to reconsider is laid upon 
the table.
    Without objection, committee staff is authorized to make 
technical and conforming changes to reflect the action of the 
committee in adopting Committee Resolutions 1 through 3.
    Before we adjourn, let me raise an administrative matter. 
As chairman I plan--oh, yes. Okay. Yeah, this is the issue 
surrounding our committee hearings. There is a 5-minute rule, 
as you are all aware. We try to get to absolutely every member. 
We this year have 59 members of this committee. We have a lot 
of hearings, and there is a 5-minute rule for every member.
    You can do the math on that one and figure out how long it 
would take to do a committee hearing if all 59 members took all 
5 minutes. We don't always get to everybody. But we try to make 
sure that the members of this committee, regardless if they are 
senior or junior, have an opportunity.
    So in doing that, when have you 5 minutes, you have 5 
minutes. There used to be the old trick of, you know, making 
your question last 4 minutes and 50 seconds and then letting 
the guy take 5 or 10 minutes to answer it. We don't do that. 
When the 5 minutes is up, the 5 minutes is up. And the reason 
we do that is not to be mean to the member asking the question. 
It is to try to respect all members of the committee.
    It is my honest and heartfelt opinion that every single 
member of this committee is equally important, whether you just 
got here or whether you have been here for 24 years. So we want 
to try to be as inclusive as possible and get everybody's 
perspectives and views as best as we can. So that is what we 
will try to do.
    That is all I have. Let me recognize Mr. Rogers for any 
closing comments he wishes to add to the discussion.
    Mr. Rogers. I have nothing other than to say it is just an 
honor to be here. And this committee does have a bipartisan 
history that we value and we want to see continue and we will 
be working in that vein and look forward to it.
    The Chairman. Absolutely. I think it is a great note to end 
on.
    So no further business, the committee stands adjourned 
subject to the call of the chair. Thank you very much.
    [Whereupon, at 11:21 a.m., the committee was adjourned.]

                                  <all>
</pre></body></html>
